<html>
<title> - H.R. 956, DRUG-FREE COMMUNITIES ACT OF 1997</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
              H.R. 956, DRUG-FREE COMMUNITIES ACT OF 1997
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 956

 TO AMEND THE NATIONAL NARCOTICS LEADERSHIP ACT OF 1988 TO ESTABLISH A 
 PROGRAM TO SUPPORT AND ENCOURAGE LOCAL COMMUNITIES THAT FIRST 
 DEMONSTRATE A COMPREHENSIVE, LONG-TERM COMMITMENT TO REDUCE SUBSTANCE 
               ABUSE AMONG YOUTH, AND FOR OTHER PURPOSES

                               __________

                             MARCH 13, 1997
                               __________

                           Serial No. 105-19
                               __________

Printed for the use of the Committee on Government Reform and Oversight






                    U.S. GOVERNMENT PRINTING OFFICE
41-843                       WASHINGTON : 1997
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN B. SHADEGG, Arizona             DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
                          Ianthe Saylor, Clerk
                  Chris Marston, Legislative Assistant
                 Elizabeth Mundinger, Minority Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 1997...................................     1
    Text of H.R. 956.............................................     3
Statement of:
    Copple, James E., president and CEO, Community Anti-Drug 
      Coalitions of America; and Robert Francis, executive 
      director, Regional Youth and Adult Substance Abuse 
      Prevention.................................................    44
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio; and Hon. Sander M. Levin, a Representative 
      in Congress from the State of Michigan.....................    22
Letters, statements, etc., submitted for the record by:
    Copple, James E., president and CEO, Community Anti-Drug 
      Coalitions of America, prepared statement of...............    47
    Francis, Robert, executive director, Regional Youth and Adult 
      Substance Abuse Prevention, prepared statement of..........    56
    Levin, Hon. Sander M., a Representative in Congress from the 
      State of Michigan, prepared statement of...................    37
    Portman, Hon. Rob, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................    27
    Rangel, Hon. Charles B., a Representative in Congress from 
      the State of New York, prepared statement of...............    43













              H.R. 956, DRUG-FREE COMMUNITIES ACT OF 1997

                              ----------                              


                        THURSDAY, MARCH 13, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2157, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Mica, Souder, Barr, and 
Barrett.
    Staff present: Robert Charles, staff director; Chris 
Marston, legislative assistant; Ianthe Saylor, clerk; Elizabeth 
Mundinger, minority counsel; and Ellen Rayner, minority chief 
clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    I am pleased to conduct this hearing on H.R. 956, the Drug-
Free Communities Act of 1997, which I had introduced with my 
colleagues, Mr. Portman of Ohio, Mr. Rangel of New York, and 
Mr. Levin of Michigan, all who will testify today.
    I am especially pleased that this subcommittee's 
distinguished ranking member, Tom Barrett of Wisconsin, has 
signed on as a co-sponsor. Thank you, sir, for that.
    The crisis of drug use among our Nation's youth calls out 
for an answer. This bipartisan bill rechannels existing 
resources to community-based solutions. I believe that it will 
form the beginning of such an answer.
    The problem of drug abuse among our Nation's youth is 
growing. Illicit drug use among 8th and 10th graders has 
doubled in the last 5 to 6 years. Five percent of high school 
seniors smoke marijuana on a daily basis. Our children are 
using LSD and other hallucinogens--cocaine, heroin, and 
methamphetamine--at increasing levels.
    Parents have stopped talking to their children about the 
dangers of drug use. Only 3 of 10 children say their parents 
have actually talked to them about drugs.
    In my own home in Aurora, IL, I have a brother who teaches 
at the junior high level. Out of his class just this calendar 
year, he has already lost one of his students because of gang-
bangs and assassinations.
    It is a real problem. It is a real problem with our kids, 
and it is a real problem right at home.
    Decentralized Federal programs cannot answer this problem 
alone. In order to reduce demand for drugs among our Nation's 
youth, we must address the problems one community at a time.
    This bill will support the efforts of local communities to 
form coalitions from all sectors, Government, education, faith, 
business, and media, to effectively address their own local 
problems. By integrating the efforts of all of these groups, 
such coalitions can make the most of a limited pool of 
resources, and find the most effective way to reach our young 
people.
    The bill provides this support responsibility. It 
rechannels funds into matching grant programs with built-in 
accountability provisions. Coalitions must meet certain 
sustainably reasonable requirements to be eligible and they 
will be held accountable for all Federal dollars that they 
spend.
    Citizens Against Government Waste and other organizations 
support the proposal along with community-based organizations 
from all over the country.
    I look forward to the testimony from our witnesses today, 
and the insights of our Members, as we turn to the markup of 
this bill immediately following this hearing today.
    I am pleased to turn to my colleague on the subcommittee, 
the ranking minority member and co-sponsor of H.R. 956, Tom 
Barrett, for any opening remarks that he may have.
    [The text of H.R. 956 follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.001
    
    [GRAPHIC] [TIFF OMITTED] T1843.002
    
    [GRAPHIC] [TIFF OMITTED] T1843.003
    
    [GRAPHIC] [TIFF OMITTED] T1843.004
    
    [GRAPHIC] [TIFF OMITTED] T1843.005
    
    [GRAPHIC] [TIFF OMITTED] T1843.006
    
    [GRAPHIC] [TIFF OMITTED] T1843.007
    
    [GRAPHIC] [TIFF OMITTED] T1843.008
    
    [GRAPHIC] [TIFF OMITTED] T1843.009
    
    [GRAPHIC] [TIFF OMITTED] T1843.010
    
    [GRAPHIC] [TIFF OMITTED] T1843.011
    
    [GRAPHIC] [TIFF OMITTED] T1843.012
    
    [GRAPHIC] [TIFF OMITTED] T1843.013
    
    [GRAPHIC] [TIFF OMITTED] T1843.014
    
    [GRAPHIC] [TIFF OMITTED] T1843.015
    
    [GRAPHIC] [TIFF OMITTED] T1843.016
    
    [GRAPHIC] [TIFF OMITTED] T1843.017
    
    [GRAPHIC] [TIFF OMITTED] T1843.018
    
    Mr. Barrett. Thank you, Mr. Chairman. Thank you for holding 
this important hearing and markup.
    I am pleased to be a co-sponsor of this bill that will 
provide communities with the funding and organization for 
implementing a coordinated attack in the war on drugs. I 
compliment Mr. Portman and Mr. Levin for showing the leadership 
that they have today.
    We all know that we have a serious problem. Teen drug use 
is on the rise. Monitoring the Future study that was released 
in December found that the increase is caused in part by the 
fact that youngsters are not hearing about the dangers of drug 
use. Community partnerships can help us get this information 
out.
    The Federal Government already recognizes their importance 
by providing Federal funding to community coalitions, so they 
can demonstrate that their prevention methods work. In fact, 
Federal seed money has helped build a strong community network, 
which now includes over 4,000 community partnerships 
nationwide.
    I look forward to hearing from the witnesses today, who can 
tell us more about their successes and I am pleased to be a co-
sponsor of the Drug-Free Communities Act of 1997, because we 
need to continue our commitment to these coalitions. This bill 
authorizes Federal matching grants and an organizational 
framework to help communities disseminate information in the 
best way to prevent drug abuse.
    There are some issues, however, Mr. Chairman, that I would 
like to delve into further. First, the bill provides that the 
Office of National Drug Policy will appoint an administrator of 
the program after receiving a recommendation from the Advisory 
Council.
    The choice of an administrator is obviously an important 
one. I hope that we will have followup discussions in which we 
can hear from those who are in the running for administrator, 
like representatives from the Office of National Drug Control 
Policy, who will be the director of the program in the 
Substance Abuse and Mental Health Services Administration, 
which currently runs the grant program for Community 
Partnerships.
    I also hope that we can fund this new initiative without 
damaging existing drug programs, which have been successful. 
For example, the substance abuse bloc grant, which provided the 
funding used to treat 340,000 people with serious substance 
abuse problems in 1995. Or the National Institute on Drug 
Abuse, which provides us with 85 percent of drug abuse 
research, including studies like Monitoring the Future, which 
describe the drug problem and its causes.
    I do not want to see the future programs, like the 
Secretary's substance abuse youth initiative, hurt in this 
process. In other words, I do not want to rob Peter to pay 
Paul.
    It is time, however, that we take an integrated approach to 
fighting the war on drugs. It is time that we brought together 
the entire communities, schools, media, law enforcement, parent 
groups, and others, so that we can work together to fight this 
serious problem. This bill does just that.
    Thank you.
    Mr. Hastert. I thank the ranking member. Certainly, his 
advisements we will take under consideration as we move this 
bill from subcommittee and before we go to full committee. I 
would hope that we will have some field hearings, and that we 
would listen to some of the concerns of yours as well as others 
about how this bill could be made even better.
    At this time, I would like to welcome Congressman Portman 
and Congressman Levin to testify. Gentlemen, would you please 
proceed. Congressman Portman.

 STATEMENTS OF HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF OHIO; AND HON. SANDER M. LEVIN, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Portman. Thank you, Mr. Chairman and members of the 
subcommittee. I certainly appreciate the opportunity to testify 
today in support of the Drug-Free Communities Act of 1997. As 
mentioned earlier, I introduced this along with Mr. Levin, who 
is with me this afternoon, Chairman Hastert, and Mr. Rangel.
    I want to thank you, Mr. Chairman, for your help in 
developing what we think is a very good bill, but also in 
expediting this process. Not only are we having a hearing, but 
a markup today and we are very appreciative that this is moving 
forward rapidly.
    I also have to acknowledge that my friend, Tom Barrett, was 
the first cosponsor of this legislation. I take very seriously 
his concerns expressed this afternoon, and want to work with 
him on any of those.
    This is a bipartisan effort, and it reflects some new 
thinking. It takes existing Federal drug control resources, and 
rechannels them to support the community efforts around the 
country, that are actually working to reduce teenage drug 
abuse. In my view, this shift in priorities is long overdue.
    As those of you on the panel know well, and Chairman 
Hastert has already talked about, after more than a decade of 
substantial progress in reducing drug abuse in America from 
1979 to roughly 1991, those trends have now reversed and 
reversed pretty dramatically. It is about younger and younger 
kids.
    There was a new study released last week by the Partnership 
for a Drug Free America showing for the first time significant 
increases in drug use among 9, 10, 11, 12-year-olds, fourth, 
fifth and sixth graders.
    Of course, the real stories of lost opportunities and even 
lost lives are even more disturbing than the sobering 
statistics that you, Mr. Hastert, and others have talked about.
    Within the last year, in my own district, 21 high school 
students were expelled from a suburban school I represent for 
LSD use, cocaine, and marijuana use. Twelve middle school 
students, these are 12- and 13-year-olds, from the school that 
I attended as a young man, were suspended last month for 
dealing, possession, and use of marijuana on school property.
    It goes on and on. One of the reasons I got into this in 
the first place is that the mother of a 16-year-old from my 
district came to Washington to talk to me about the tragic 
death of her son. He died huffing gasoline and smoking 
marijuana a few years ago.
    It is significant to point out, I think, that no area of 
our country, no district represented by this panel, or Congress 
indeed is being spared.
    A well-respected study, which you may be familiar with, 
called Monitoring the Future from the University of Michigan, 
tells us that usage is up because young people view drugs as 
more socially acceptable and less dangerous than they did 5 or 
10 years ago.
    This has got to be a call to action for all of us here and 
around the country to get organized community by community, if 
we want to reverse these trends, and address all of the other 
social problems that drug abuse is behind. Violent teen and 
gang crime is an example; spouse and child abuse; high rates of 
high school dropouts. These are all issues that are related to 
drug abuse.
    This act that we are talking about today is designed to 
support those communities around the country, that have 
demonstrated the will with substantial volunteer participation 
to address the drug problem.
    The bill also gives incentives to spark those communities 
that are not yet organized. It focuses on providing support in 
every case in what I think is a very cost effective manner.
    I would like to highlight the six main points of the 
legislation quickly, and then turn to my colleague, Mr. Levin. 
First, a local community must demonstrate, before any money 
goes to that community, that there is a comprehensive 
commitment to reduce drug abuse. This would enable them to 
qualify for matching Federal grants of up to $100,000.
    Experience in the field, Mr. Chairman, good research, and I 
think just common sense tells us that communities that have 
every major sector involved in this effort are going to be more 
successful.
    That is why this legislation awards those communities that 
mobilize youth, parents, businesses, faith leaders, law 
enforcement, educators, and all of the other key sectors 
working together for at least 6 months with a focused mission 
and targeted strategies.
    Second, the local community must demonstrate that it is not 
dependent on the Federal dollar. I think that this is very 
important. Because with local will and local financial support, 
the program is going to be more successful. Without it, in my 
view, the program just will not survive over the long haul.
    In fact, we have I think a good record in this regard in 
the sense that from CSAP, the community partnership program, 
grants were given to many communities that simply did not have 
a sufficient non-Federal support base. During its 6-year life, 
the CSAP community partnership program has made at least 252 
grants, typically ranging from $350,000 to $700,000 to 
community programs.
    Today, we understand that only 137 of those programs 
survive. So about half of them are gone. Again, I think this 
goes in large measure to a lack of support in the community.
    In my view, we should be a catalyst to these communities to 
get organized to do the right thing, but we cannot sustain it 
solely with Federal support.
    Third, one of the most common and often criticismed of the 
Federal programs that support State and local initiatives is 
the lack of accountability. We have heard that with drug free 
schools and many other programs. This bill requires the local 
community to have a system of evaluation in place. It has to 
measure outcomes, and it has to be consistent with the common 
indicators out there.
    This again is very significant and a change from where we 
have been. We have learned, I think, over time that successful 
community efforts around the country who evaluate their 
progress over time are going to be much more successful.
    Most have to do so in order to get private sector funding. 
Again, I think, that is something that we have built into this 
program. Where if you have to go out to the business community, 
and other foundations, and other private sector sources to get 
funding, you are going to have to have a program in place to 
measure your results.
    To put the full responsibility for evaluating these 
programs, Mr. Chairman, on the Federal Government in this case, 
I think would lead to a larger bureaucracy, more costs, and 
more onerous reporting requirements for the participating 
community. So we have the community group itself do this.
    One of the common criticisms of the CSAP program as an 
example is that the community coalitions had to hire someone 
just to comply with the Federal reporting requirements. This 
bill meets the need for real accountability with a minimum of 
red tape, I think, by requiring the administrator to approve 
the local system evaluation with help from people immersed in 
the field, and then monitor the progress of local communities.
    But it also requires the administrator to make every effort 
consistent with existing law to minimize the reporting 
requirements to the Federal Government. I think that it is the 
right balance.
    Fourth, although the data shows us that broad based local 
efforts work best, we also know that national and State 
leadership can play a role at the local level. For example, 
national and State experts in the field can assist local 
communities by sharing the best ideas from around the country, 
and helping put in place effective systems to sustain and 
evaluate those local efforts.
    The bill encourages local communities to involve their 
Federal and State leadership, including Members of Congress. I 
can speak from my own experience, as can other members on the 
panel, over the last 2 years in organizing our own coalition in 
Greater Cincinnati, we had helped mobilize our local community, 
but also brought national groups to the table like the 
Partnership for Drug Free America; like CADCA, Community Anti-
Drug Coalitions of America; the PRIDE group, the National 
Parents Resource Institute for Drug Education. We also brought 
in, of course, the State anti-drug resources.
    Because the drug issue has to be addressed at the local 
level, I believe all of us must focus our efforts at the local 
level. But we have something to bring to the table too at every 
level.
    Fifth, the Federal support provided under this program I 
think provides a lot more bang for the buck. The bill 
redirects, at its height, less than three-tenths of 1 percent 
of the existing drug budget. Once again, I take Mr. Barrett's 
concerns very much to heart. But we have to remember here that 
not one Federal dollar will be spent under this program without 
a dollar or more first having been generated by the local 
community. It is a relatively small part of our national drug 
budget.
    Communities with larger populations can qualify for more 
than one grant. Federal support is also available to sparsely 
populated areas, and the bill recognizes the very special 
challenges many of these communities face in trying to organize 
an effort to reduce drug abuse.
    I want to just tell you what a couple of people in the 
field have told us recently about what they would do with this 
Federal support. We have a lot more testimony on this that we 
can provide for the record.
    One example would be from Ronda Kopelke. She is from the 
North Woods Coalition in Marshfield, WI. She wrote, ``If you 
have Federal support based on community buy-in, then it can 
help us leverage support from the community. A small grant, 
even $5,000, could enable our coalition to build a regional 
youth alliance, send youth to camp to learn drug and alcohol 
strategies, and hire a part-time person to marshall the 
volunteers,'' in other words leveraging volunteers, ``necessary 
to sustain the effort over time.''
    Marilyn Culp, executive director of the Miami coalition, a 
well-known coalition in Miami, FL, that has cut community drug 
use there to about half the national average, has said that a 
$100,000 grant from the Federal Government would enable that 
coalition to leverage an additional $300,000 to $400,000 
immediately from the private sector. That this would train an 
additional 20,000 parents on how to talk to their kids about 
the dangers of drug abuse, practical steps that they can take.
    The Miami Coalition could also send community drug free 
messages on up to 200 more billboards across the Miami area, 
and could train up to 300,000 students on the dangers and un-
acceptability of drug abuse, and on life enhancing skills.
    Again, I could go on and on. The stories do go on and on, 
and they are good ones. But the point is that a small amount of 
Federal support that tracks local will can act as a catalyst to 
help these local communities fashion effective solutions to 
meet their communities' needs.
    Finally, to ensure that this program assists those efforts 
that are truly working, and to ensure that it gives communities 
the flexibility to continue to fashion local solutions and try 
innovative initiatives, an advisory commission is in this 
legislation. It is made up of local community leaders and 
national and State experts in the field, and they will help the 
administrator oversee this program.
    I think that this is a good change. The members of this 
advisory commission will be able to review grant applications, 
policies and criteria relating to the program, to ensure the 
program remains responsive to local needs.
    The legislation, as you know, I think, has the support of 
hundreds of community groups in all fifty States. It has the 
support of national leaders like former Drug Czar William 
Bennett; Community Anti-Drug Coalitions of America; the 
Partnership for a Drug Free America; PRIDE; and D.A.R.E. 
America.
    Because it is fiscally responsible, believe it or not, it 
has the support of the Council for Citizens Against Government 
Waste. What a combination. This bill is also consistent, I 
think, with the goals of the National Drug Control Strategy 
that the President has submitted. I think that it frankly 
improves on the proposals within those goals.
    We have already received constructive input over the past 
few months from the Office of National Drug Control Policy, and 
this bill actually reflects much of their input on the 
legislation. We are also working with the appropriations staff 
and so on to help identify appropriate offsets, although they 
are not made part of this legislation.
    I am hopeful that we can work together on a bipartisan 
basis to move this bill forward, Mr. Chairman, so that we can 
provide the necessary support to our communities around the 
country to truly reduce teenage drug abuse.
    Again, I want to thank you and members of the subcommittee 
for moving this process so quickly forward. I am happy to 
answer any questions.
    [The prepared statement of Hon. Rob Portman follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.019
    
    [GRAPHIC] [TIFF OMITTED] T1843.020
    
    [GRAPHIC] [TIFF OMITTED] T1843.021
    
    [GRAPHIC] [TIFF OMITTED] T1843.022
    
    [GRAPHIC] [TIFF OMITTED] T1843.023
    
    [GRAPHIC] [TIFF OMITTED] T1843.024
    
    [GRAPHIC] [TIFF OMITTED] T1843.025
    
    [GRAPHIC] [TIFF OMITTED] T1843.026
    
    Mr. Hastert. I thank the gentleman from Ohio for the 
excellent work that he has done.
    At this time, I would like to recognize the gentleman from 
Michigan, who has also been a leader in Michigan and certainly 
in his home area in making these types of programs work. The 
gentleman from Michigan, Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman; my friend also, the 
ranking member.
    Mr. Chairman, you and Mr. Portman, my colleague, and Mr. 
Barrett have spelled out vividly what the problem is. So I will 
not dwell on it. The data is disconcerting.
    We are struggling to find answers to a clear problem. I 
have joined Mr. Portman over these months. It has been going on 
now for some time. Because our experience indicates that there 
are some answers. When we have a tough problem, we better grab 
hold of some good answers.
    I have seen in the district that I represent, that I came 
to represent in 1992, experiments with coalitions. The one that 
I first became intimately involved with was the Detroit 
Coalition. Essentially, that experience is one of those 
mirrored in this legislation.
    They decided in this suburban community, a fairly well-to-
do suburban community, that there was a drug problem that was 
not being confronted. So they called on all of the communities 
to pull together--the education community, parents, students, 
the law enforcement community, the business community, the 
religious community--and put together a broad-based 
comprehensive coalition approach.
    They received some assistance from the Federal Government, 
a grant. But they have run this coalition. It has not been 
operated from Washington or anyplace else, except from Troy, 
MI.
    We asked them to use this grant to work within Troy, and to 
spread the effort to neighboring communities and they have done 
just that. There is evidence that it is working within Troy, 
where they took a targeted area, and drug abuse has diminished 
substantially.
    So this proposal builds on the experiences of coalitions 
like Troy and others in our district, and those in Mr. 
Portman's district, and Miami, and other places. It says what 
is the role of the Federal Government here.
    I think No. 1, to express a national commitment, 
leadership, use the bully pulpit, all of us. Second, to spread 
the word. Because it is hard for one community in one State to 
know what has worked in another community. Third, to spark 
further efforts and that is what this bill endeavors to do.
    So I would urge strongly that you proceed as you are 
planning to do so. We are pleased that you are going to proceed 
to markup quickly.
    Let me just say in response to the concerns that have been 
raised. I, with others, have worked hard to try to make sure 
that SAMHSA has received adequate funding, and will continue to 
do so.
    I do not think that there is any robbing of Peter to pay 
Paul here. What this effort is is to say that among the 
resources that we are spending, Federal resources, we want to 
take a very small portion of them, and apply them to an 
approach that we know is working.
    I think that this is a wise move, to try to make sure that 
we prioritize among programs while they are not implemented 
here, but they are carried out locally.
    So I will be glad to answer any questions, as Mr. Portman 
will. I have become a true believer. This is something that is 
happening in the grassroots. We are not manufacturing it. What 
we are really doing is carrying messages and experiences from 
the grassroots here to Washington, and then trying to spark 
their realization in other places.
    So we thank you for this hearing, and we look forward to 
continuing to work with you.
    [The prepared statement of Hon. Sander M. Levin follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.027
    
    [GRAPHIC] [TIFF OMITTED] T1843.028
    
    [GRAPHIC] [TIFF OMITTED] T1843.029
    
    [GRAPHIC] [TIFF OMITTED] T1843.030
    
    Mr. Mica [presiding]. Thank you, Mr. Levin, and also my 
colleague, Mr. Portman, for your leadership on this issue and 
other issues relating to drug education, and trying to do a 
better job in our communities to address this problem.
    I have just one or two quick questions, if I might.
    When you all were constructing this legislation, did you 
find that there were instances where it duplicated some 
existing programs for grants or assistance from the Federal 
Government?
    Mr. Levin. I know Mr. Portman and the chairman had to 
leave. There is a debate on the floor.
    Mr. Mica. Right.
    Mr. Levin. On an issue that involves drugs.
    I think that the answer is no. There is presently a series 
of demonstration projects being undertaken, most of them being 
phased out. I really do not think that this is duplicative. The 
only thing that this is duplicative of, it is really not 
duplicative but it is replicative. I mean this is an effort to 
carry out what I think in our experience is one of the most 
difficult things, to replicate successful programs.
    Mr. Mica. The other question I had is having dealt with 
Federal grants before, and I heard small amounts for these 
grants, I think Mr. Portman mentioned $5,000 or something to 
get started, one of the problems with receiving Federal money 
is that it requires a great deal of reporting, and bookkeeping, 
and things of that sort.
    I am wondering if there is any way that we can still have 
some oversight of how these funds are expended and in what 
fashion they are expended in an appropriate manner, and yet 
keep the mounds of paperwork that usually accompany Federal 
programs to a minimum?
    Mr. Levin. Well, like you, I have worked with a variety of 
Federal programs. This is fashioned so that there will be a 
minimum amount. If you look at the dynamics here, what we are 
saying to community groups, you get together, and we are going 
to provide some seed moneys, but you are going to run your 
programs. They are not going to be operated from here.
    I think that the experience from within our own district 
indicates that the Federal Government can spark and support 
initiatives if it is careful without a lot of paperwork.
    Mr. Mica. I thank you for your response, and again for your 
leadership on this issue with Mr. Portman, Mr. Rangel, and 
others. I yield now to the ranking member, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Mica.
    Sander, I just want to thank you for the leadership you 
have shown on this issue. Obviously, we all recognize that if 
we are going to make progress in our fight against drugs, that 
it is going to take a lot of different factions working 
together. I think that this is a very good faith effort to do 
that in a coherent manner, and do it with a lot of local input. 
So thank you.
    Mr. Levin. Thank you. As I leave, I just want to say one 
thing. I spent quite a bit of time, as you probably did, in the 
fall at high schools, and I left them kind of shaking my head. 
We are not facing up to these issues. Where communities are 
willing to take the lid off and to really look inside the 
dynamics of these issues, and to pull together the resources, 
we should encourage it.
    Mr. Barrett. Thank you.
    Mr. Levin. Thank you very much.
    Mr. Mica. Thank you, Mr. Barrett.
    [The prepared statement of Hon. Charles B. Rangel follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.031
    
    Mr. Mica. Thank you, Mr. Levin. We will excuse you at this 
time.
    We will call our second panel this afternoon. The second 
panel is Mr. James E. Copple, president and CEO of the 
Community Anti-Drug Coalitions of America.
    Our second panelist is Mr. Robert Francis, who is the 
executive director of the Regional Youth and Adult Substance 
Abuse Prevention Program.
    Gentlemen, this is an investigations and oversight 
subcommittee of Congress. We do swear in our witnesses, when we 
are considering this legislation. So if you would please stand 
and raise your right hand.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. We 
thank you again for joining us, and for your commentary today 
on this important legislation issue before this subcommittee 
and Congress.
    We do have a practice of limiting the addresses to 5 
minutes, and we will enforce that today. If you have additional 
comments or documentation that you would like submitted for the 
record, we will accommodate that request.
    So first, I will recognize Mr. James E. Copple of the 
Community Anti-Drug Coalitions of America. Welcome, and you are 
recognized, sir.

  STATEMENTS OF JAMES E. COPPLE, PRESIDENT AND CEO, COMMUNITY 
ANTI-DRUG COALITIONS OF AMERICA; AND ROBERT FRANCIS, EXECUTIVE 
 DIRECTOR, REGIONAL YOUTH AND ADULT SUBSTANCE ABUSE PREVENTION

    Mr. Copple. Thank you, Congressman Mica, and Mr. Barrett. I 
appreciate the opportunity to address this important committee 
on this important topic. We are thrilled today that this 
legislation is being introduced, and that it has bipartisan 
support. It gives us great promise and hope in terms of what we 
hope to see happening in local communities throughout America.
    I am here today to speak to the power and to really the 
promise of coalition building in local communities throughout 
our country. In today's complex community environment, 
coalitions promote coordination and corroboration in needless 
competition and redundancy in community services aimed at 
preventing and treating drug abuse.
    A coalition which engages all sectors of a community is 
able to identify key problem areas, as well as opportunities, 
and can chart the best use of available resources to address 
priorities in the community. Coalition building is a smart 
strategy that can make a dynamic difference when it works to 
its fullest potential. This legislation that we are here to 
consider recognizes this potential, and provides important 
resources.
    The Drug-Free Communities Act of 1997 offers great promise 
and hope to those of us who have long worked in this field. 
Communities can no longer afford to work in isolation. 
Resources are too few and programs too diffuse. Program and 
organizational isolation is our enemy at a time when our 
children need consistent and persistent messages from all 
sectors of society.
    The Drug-Free Communities Act of 1997 brings about the 
whole community, and brings them together to address this 
problem.
    This legislation represents a shift in the way that we have 
historically funded and addressed this issue. The shift can be 
highlighted in the following ways. This legislation requires 
the communities to participate in this program to have clear 
documentation and outcome evaluation. Grant recipients must 
demonstrate that they can and will document the extent of the 
community drug problem, and implement programs with outcome 
evaluation that will assess whether or not their programs 
actually produce change.
    The emphasis is on outcome evaluation. Previous efforts by 
the Federal Government have focused on process evaluation, 
leaving us little to assess in terms of effectiveness, and also 
quite frankly a far more expensive evaluation process.
    Communities must now build coalitions that will reduce drug 
abuse, and they must demonstrate how these coalitions make a 
difference.
    The second major shift is that these grant awards are 
reasonable, and they are targeted grants. Grant awards cannot 
exceed $100,000. Community driven coalitions should not be 
dependent upon the Federal Government or any other single 
source for their sustainability. These awards match existing 
community efforts that reflect the size and will of the 
community to address their own substance abuse problems.
    Previous efforts have poured large amounts of Federal 
dollars into the community with little or no regard to the 
community's capacity to sustain themselves after the Federal 
funding was no longer available.
    The third major shift is participation by elected 
officials, which bring local, State, and national leaders to 
the table in this process. This is a top down, bottom up 
strategy that has proven its effectiveness in many community 
coalitions throughout the country.
    True coalition building engages the political leadership in 
a way that helps to create and strengthen community and 
volunteer based assets and leadership. Further, another shift 
is it is a coordinating agency.
    This program will be housed and administered in the Office 
of National Drug Control Policy. ONDCP's mission is to provide 
a coordinated and comprehensive national strategy. Grant 
recipients under this legislation are required to build 
coordinated and comprehensive strategies at the local level.
    It is fitting that this program be administered by the one 
agency with the mandate to create a coordinated national 
strategy against the drug problem. This will help circumvent 
many of the turf-ish issues that we often address in local 
communities.
    A fifth shift is citizen participation. This legislation 
recognizes the importance of volunteer leaders such as parents, 
civics clubs, and clergy. A local coalition will be required to 
demonstrate a substantial participation from citizens whose 
lives are directly affected by drug abuse.
    I want to also comment briefly on how this strategy has 
worked, and it has worked in numerous communities. We have 
strong evidence that when diverse sectors of a community 
corroborate on planning and implementing coordinated 
strategies, the result is a positive change in environment 
behavior.
    Just 2 weeks ago, I was in Wisconsin with the Governors 
Alliance looking at 132 separate coalitions. The number of 
those alliances that are demonstrating outcome evaluation is 
very impressive.
    A couple of coalitions that I want to highlight is Little 
Rock, AR, which is a partnership between the city of Little 
Rock and a city-wide coalition. It has implemented a 
comprehensive program which has been so well received that 
Little Rock voters have chosen to institutionalize these pilot 
programs with an additional half cent sales tax to support and 
expand them.
    The innovative programs include the establishment of 
neighborhood centers with action teams that include community 
police, code enforcement, and neighborhood residents, and have 
reduced the victim crime rate by 37 percent in the eight target 
areas. A special treatment program for pregnant women, which 
has reduced the rate of alcohol use by mothers at the time 
before birth from 37 percent to only 4 percent. It has reduced 
the incident pre-term labor from 50 percent to only 8 percent.
    These coalitions are working, and they are working to 
reduce substance abuse. In Miami, the reported drug use 
decreased by 55 percent during the campaign from 5.4 percent in 
1991 to 2.4 percent in 1993.
    In Hattiesburg, MS, the outcome of these targeted efforts 
was the DUI arrests decreased by 28 percent, and arrests for 
individuals under 21 years decreased by 45 percent. 
Additionally, the rate of DUI related injuries decreased by 42 
percent.
    This was the result of coalition strategies. Other examples 
are included in my testimony, Congressman Mica, as to how these 
coalitions have worked, and worked effectively when they are 
coordinated and corroborative.
    This legislation gives us additional tools for local 
communities to address this issue in a comprehensive and 
strategic manner. Thank you.
    [The prepared statement of Mr. Copple follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.032
    
    [GRAPHIC] [TIFF OMITTED] T1843.033
    
    [GRAPHIC] [TIFF OMITTED] T1843.034
    
    [GRAPHIC] [TIFF OMITTED] T1843.035
    
    [GRAPHIC] [TIFF OMITTED] T1843.036
    
    [GRAPHIC] [TIFF OMITTED] T1843.037
    
    Mr. Mica. We thank you for your testimony. We will defer 
questions until we have heard from Mr. Francis.
    Mr. Francis is the executive director of the Regional Youth 
and Adult Substance Abuse Prevention Program. You are 
recognized, sir.
    Mr. Francis. Thank you, Congressman Mica and thank you to 
the other members of this committee, and especially Congressmen 
Portman and Levin and others who introduced this legislation.
    As was said, I am the executive director of the Regional 
Youth Adult Substance Abuse Project in Bridgeport, CT. We are a 
regional coalition. My testimony today is going to represent 
some of the long-term work that we have done in Bridgeport by a 
coalition similar to that in this legislation.
    Greater Bridgeport consists of a poor medium-sized city and 
five suburban communities ranging from working class to quite 
wealthy. The total regional population is about 320,000.
    RYASAP was started in 1984 with seed money from the local 
United Way in response to a student survey that demonstrated a 
very high incidence of alcohol, tobacco, and other drug use. 
Cocaine and hallucinogen use in our region was especially high, 
with rates that far exceeded the national data.
    Since 1984, RYASAP has conducted substance abuse surveys in 
1989, 1992, 1995, and again next year to continue to track our 
efforts in this region. The research in those years 
demonstrated a major reduction in all forms of drug use, but 
especially with cocaine, crack, heroin, and hallucinogen use 
among young people.
    With alcohol, tobacco, and marijuana, there were also major 
reductions from 1984 to 1992. Alcohol and tobacco use has 
remained low. But from 1992 to the present day, we have had 
increases in marijuana use. Not quite as high as the national 
levels, but high enough to give us alarm.
    RYASAP's reduction in the maintenance of low use of 
cocaine, crack, and other harder drugs is much better than the 
national data, while the use of alcohol, tobacco, and marijuana 
is not quite as good.
    Why the discrepancy? When RYASAP was founded, we placed a 
much greater emphasis on these harder drugs, because we were so 
far out of whack with the rest of the country. We implemented 
broad community awareness campaigns, new school based substance 
abuse prevention curricula, student assistance teams in our 
schools, school police policies, as well as several other 
targeted prevention activities.
    We did not place as much targeted emphasis on marijuana as 
we should have and we believe that greater efforts such as the 
kind we are pursuing now will have a greater impact.
    What are the principles that we used during this time that 
have had us had such a strong local impact? These are some of 
the same principles represented in this legislation.
    First, we focused on an entire continuum of services, not 
just one effort--community awareness, education, prevention, 
intervention, treatment, law enforcement, and alternative 
community pilot programs.
    We established task forces of grassroots community leaders 
and the top level leaders in our community in every area of the 
continuum. We used our United Way money to leverage other 
dollars, the same way that coalitions across the country would 
use the money in this to leverage other funds.
    We got funding from the Robert Johnson Foundation, from our 
local municipalities, from the State of Connecticut, and others 
to fill gaps in service, and to give us a comprehensive 
continuum.
    Comprehensive school policies were established. There was 
one curriculum established for the entire region in seven 
different school systems. Student assistance teams were 
established in 106 elementary and secondary public and 
parochial schools. An assessment and case management system for 
early intervention was introduced and alternative education 
programs were established.
    Through all of this, we had over 1,600 volunteers a year 
working in all of these areas from all of the different areas 
that we are talking about. Second, we focused on 
sustainability. We knew that the United Way seed money for 3 
years would not be enough to solve the problem. Substance abuse 
has been with us for an awfully long time, and we were not 
going to lick it in 3 years time.
    One of the major things that we did with these funds is we 
leveraged a lot of other dollars. We secured municipal funding 
from each of our six municipalities. We worked to create State 
legislation that put coalitions like RYASAP and like the 
coalitions across the country into the State budget. We 
conducted local fundraisers.
    This allowed us to maintain a core staff that was focused 
on creating the kind of programs that we need here, and it gave 
us some sustainability over an entire period of time.
    Third, we know that it takes an entire community, regional 
in our case, involving one central city and some of its 
suburbs. The problems and therefore the solutions did not 
belong to one town. They do not belong to one community or one 
State. They involve a corroboration of several communities 
working in concert with local, State, and Federal Government.
    It also involves all sectors of the community, business, 
education, Government, law enforcement, clergy, and human 
service leaders working with young people, parents, 
neighborhood residents, and senior citizens.
    We organized groups block by block, town by town, sector by 
sector, and we cross-fertilized the different populations, so 
that they are all working together, knowing that it took all of 
us to solve the problem.
    Fourth, we found out that young people need meaningful 
opportunities to determine their own fate. Our studies and 
focus groups tell us that young people are skeptical of what 
adults have been telling them about drugs, and especially 
recently about marijuana.
    What they have told us they want, and I feel that they are 
correct, is meaningful involvement in their own education, and 
to work on topics that are developmentally relevant to them. 
They want guidance from adults, but they also want to listen to 
their peers. They want their opinions to be seriously discussed 
regarding legalization, decriminalization, responsible use of 
alcohol, modeling of alcohol and drugs by parents, and other 
things.
    Finally, single-focused intervention, such as targeted 
prevention, education, cracking down on pushers, or holding 
more community meetings, are by themselves ineffective. Beware 
of those who have one answer.
    Unfortunately, we are a Nation of fads and magic potions, 
excuse the pun. We demand instant or congressional-term-length 
solutions. I hope that we would not do that here.
    Youth and adults taking mind-altering drugs have been with 
us longer than any of you. We will not solve this problem 
overnight. Our approach must be long term. It must be 
sustainable, especially by the kind of legislation you put 
forward here.
    I want to thank you for your time this afternoon and any 
questions you have about a local coalition, I would be glad to 
answer. Thanks again.
    [The prepared statement of Mr. Francis follows:]
    [GRAPHIC] [TIFF OMITTED] T1843.038
    
    [GRAPHIC] [TIFF OMITTED] T1843.039
    
    [GRAPHIC] [TIFF OMITTED] T1843.040
    
    Mr. Barr [presiding]. Thank you very much.
    One of the things you said is it takes an entire community. 
I am glad that you did not use the worn phrase that it takes a 
village. I appreciate that.
    Mr. Francis. I do not believe that Mrs. Clinton started 
that, by the way. I think that has been around long before her.
    Mr. Barr. What effect from your work in communities on this 
issue do role models in the media and in the entertainment 
business play in this effort?
    Mr. Francis. Well, they are an important part. In our area, 
of course, we do not have ready access to those folks in terms 
of using them. I think that they have an impact on young 
people. There is no doubt about that.
    Mr. Barr. How about from a negative standpoint? I subscribe 
to Car and Driver magazine. I picked up Car and Driver last 
month and flipped it open, and there is a picture of a naked 
Dennis Rodman advertising for milk.
    How about from a negative standpoint, the role models that 
the media have, the advertisers, and that the entertainment 
business portrays, is that something that sort of eats away at 
all of the good work that we are trying to do in communities 
for our kids?
    Mr. Francis. I think that it is definitely a fight on our 
part in terms of counteracting those messages. I think that we 
need enough resources to counteract those messages on a regular 
basis. I do not think that you can put up enough money to 
counteract things like Joe Camel, and the frogs on the 
Budweiser commercials, and people like that. Some of our role 
models give you mixed messages, like the Dennis Rodman 
commercial.
    Mr. Barr. I do not think that there is anything mixed about 
the message that Dennis Rodman gives.
    Mr. Francis. I think that what we do in the community by 
community approach is that we are the people out there talking 
to young people on a regular basis. You need people out there 
talking.
    Mr. Barr. Over the long term.
    Mr. Francis. Over the long term to counteract that.
    Mr. Barr. How about mentoring programs? One of the programs 
in which I participated when I was a U.S. Attorney in Atlanta 
was a mentoring program at the local high school. At least in 
Atlanta, we found that was really, in talking to the kids, one 
of the types of programs that meant a lot more to them than 
just bringing somebody in who is a big name and deliver a 
message in the school auditorium.
    They appreciated the mentoring program, because the kids 
could count on those men and women in the mentoring program 
being there month after month after month for the entire school 
year.
    Is it important in looking at these programs and these 
grants to understand, as I think we need to, that if we are not 
serious about making funds available and having the programs 
being able to sustain themselves over a long period of time, 
that it is almost not worth doing?
    Because if we jump in for a little bit and then we leave, 
that in and of itself I find gives the kids a bad message. That 
we are not going to trust you in the future, because we feel 
you are going to abandon us. You are here today, and maybe you 
will be gone tomorrow.
    Is that an important thing to keep in mind in these 
programs?
    Mr. Francis. I would like you to come to my community and 
almost give that talk. Because we are supporting a couple of 
local mentoring programs with our funds right now, and it is to 
do exactly that.
    One of the programs that we are supporting are some people 
who have been through the criminal justice system themselves 
and have already been in jail. But when they come out, we have 
supported a program where they have been picked up by this 
organization and they have been trained, and they have turned 
their lives around. They have sort of adopted young people 
themselves that they are following, who have started to get 
into some trouble, who have been in the juvenile court, and 
they have linked up with them. They are providing a model for 
them to do positive things.
    They are always there. Their telephone numbers are 
available 24 hours a day 7 days a week. They are almost better 
than the parent who is missing in many cases here, and they are 
providing a very positive role model. They are able to tell 
them from firsthand life experience what is going on.
    Mr. Copple. If I could add too, Mr. Barr. Mentoring is one 
of those programs nationally that has good evaluation data. We 
are seeing that mentoring makes a difference and that many of 
our coalitions and one of the powers of this piece of 
legislation, it gives coalitions the option to design those 
kinds of programs.
    Because kids at risk, all kids, need a significant adult in 
their life. Those adults come from multiple sectors, be it the 
faith community, the schools, the media, the business 
community, they are present in this kind of effort. It gives 
coalitions and community groups the leverage and the power to 
do those kinds of programs.
    Mr. Barr. One program, at least, Mr. Francis, you did not 
mention by name--and I do not know, Mr. Copple, if you did--is 
the Just Say No program, that I think was a very effective 
program in the 1980's.
    In your view, was it an effective program?
    Mr. Copple. It was effective to the extent that it was part 
of a larger media message. It is important for young people to 
hear those messages. It was something around which communities, 
and groups, and young people could rally.
    But again, as I think Bob indicated earlier, there is no 
single solution and it requires no single curriculum. There is 
no single message. Kids are different, and communities are 
different. We need those messages coming across culture, and 
across the various sectors that intersect with the child.
    I think that a media strategy that focuses on that will be 
important. But it has to be bolstered, as it was in the 1980's. 
It has to be bolstered by strong community participation.
    Mr. Barr. Are there some coalitions that are in fact 
demonstrably reducing teenage substance abuse, and some 
communities that are doing far better than the national figures 
that we see?
    Mr. Copple. A number of them. I have indicated in my 
testimony, to call your attention to Hattiesburg, MS that 
focused on substance abuse reduction. The Miami Coalition 
reduced it by over 50 percent and a coalition that I worked 
with, Project Freedom in Wichita, KS, we reduced DUI instances 
by 35 percent.
    MOMS, we did a live study and evaluation on 800 live 
births, where we found that 18 percent of the live births in 
our community were drug-exposed. We reduced that to 9 percent 
over a 2-year period. Because it brought the various sectors, 
multiple sectors, together.
    In Gallup, NM, they reduced substance abuse significantly 
ahead of the national average, as well as in Little Rock.
    There are a number of coalitions that are making this 
happen. When they do coordinated, corroborative strategies, and 
they link good strategic planning with evaluation, we generally 
see impact and this is what this legislation requires 
happening.
    Mr. Barr. Thank you.
    Mr. Francis. You cannot let up. I think that is one of the 
keys. We cannot fall asleep at the wheel here. We need 
coalitions that we can count on day to day. They cannot be out 
there just struggling for dollars all of the time. They have to 
be out there with the people, and actually doing the work that 
we have discussed here.
    Mr. Barr. OK. Thank you.
    At this time, I would like to recognize the distinguished 
ranking member.
    Mr. Barrett. Thank you, Mr. Chairman.
    In the introduction to the bill or in the findings of the 
bill, one of the statements that is made refers to the increase 
of drug usage among younger teens.
    What do you see as the cause of that?
    Mr. Copple. I have labeled and I have borrowed the phrase 
from Lloyd Johnson at the University of Michigan. I think that 
we have one significant influence, and that is generational 
forgetting. That as Bob has indicated earlier, this is a long 
term strategy that requires consistent and persistent messages.
    We have parents who are very much conflicted over the 
messaging, when 60 percent of them themselves used drugs during 
the 1960's. They are struggling with how to frame their 
response and frame their reaction.
    We have lost sight of this message. In the last couple of 
years, we are starting to recover the message. But I think that 
media norms have changed, and community norms have changed and 
that the greater peer pressure is beginning to focus on young 
people.
    I have often illustrated. I have a 21-year-old daughter. 
When she was in junior high, she was not offered drugs, not 
even one time. My 14-year-old daughter, who just finished 
middle school, junior high, last year was offered drugs seven 
times last year.
    The attitude of how it is normalized in the mainstream 
culture is significantly different over a period of 6 years. 
But a lot of it has to do with generational forgetting, and not 
keeping consistent with the message.
    Mr. Barrett. Mr. Francis.
    Mr. Francis. I think that the No. 1 question, I talk to a 
lot of parent groups in my travels, and the question arises in 
every single group, I used drugs when I was a teenager and when 
I was in my twenties, what do I say to my kids when they ask me 
whether I used drugs, or what do I tell them, that it is wrong 
having a joint or having some marijuana?
    What we have done is we have instituted a pretty broad 
educational program to really help parents put that message 
across. You can either be very honest with your kids and tell 
them that you did use. I think that is a judgment call. That is 
not something that I am going to say one way or another in 
terms of whether you tell your kids the truth about that.
    But I think that the truth worked well can work. It is not 
the idea that I used drugs, and I am using generically, when I 
was a young person. Whether I can talk to my children well 
about that or not. It is sort of how I convey that message, the 
harm that will be done, how it stunts their motivation.
    Parents are having a very difficult time with this issue 
and it starts a discussion every time we meet with parents too 
about that issue in general. You know, the parents today of 
these teenagers are in their thirties, forties, early fifties 
possibly at the latest. They are the generation that 
experimented probably more than any other.
    If you look at substance abuse in the late 1960's and early 
1970's, that data far exceeds what we are looking at today. As 
high as we think it is today, it was almost double than it is 
today back then.
    Mr. Barrett. Have we seen a more dramatic increase in the 
use of cocaine; and if you have a generation of adults who used 
primarily marijuana, are we seeing their children moving to 
cocaine, or are their children basically staying with 
marijuana?
    Mr. Francis. We are not seeing that. We focused a lot of 
attention on cocaine and our cocaine use in 1984 was the 
highest in the country. We had a 12 percent of high school 
seniors who had tried cocaine in 1984. We had less than 1 
percent last year when we did our survey. So we are not seeing 
it with harder drugs, but we are seeing it with marijuana.
    Mr. Copple. I would concur with that. The rates of increase 
in cocaine use is not as dramatic as we are seeing with 
marijuana, methamphetamine, and inhalants, which have become 
more of the popular drugs for younger kids.
    Mr. Barrett. When I looked out over the audience in the 
hearing, and looked at the faces of all of the good people 
here, I noted that there were no minorities here. That troubles 
me, obviously. Because I think that in many of the minority 
communities in our country that the problem is that they do not 
have the resources to go into treatment programs, if they get 
tripped up by drugs.
    What makes you confident that this type of program will 
work in minority communities?
    Mr. Copple. This is by coincidence more than design. I was 
in Milwaukee 2 weeks ago meeting with a group of neighborhood 
coalition leaders, part of Milwaukee Fighting Back. When we 
talked about this legislation, and its promise and its 
prospect, there were two messages that I heard. That drug abuse 
disproportionately affects minority communities and 
neighborhoods, because of drug trafficking. But 70 percent of 
the drug abuse in this country is white middle class.
    Unfortunately, the minority community, we have got to deal 
with its disproportionate impact that oftentimes the issue is 
exacerbated by poverty, joblessness, and a number of other 
factors.
    The message that I heard is that any resources that can be 
directed toward local communities to give them the power to 
choose the program designs that best work for their 
neighborhoods and communities will be welcomed.
    They are tired of prescriptive programs. Because it worked 
in Chicago does not mean that it will work in Milwaukee. 
Because it works in Milwaukee does not mean that it will work 
in Wichita. They want the flexibility to be able to design and 
implement programs that work for them.
    It is critical that we give them resources to look at a 
variety of solutions. Because a spokesperson in Milwaukee in 
terms of a housing project working with low income families to 
actually purchase housing, and to target drug abuse in those 
environments that are having an impact on housing prices, he 
has to have the flexibility to be able to design a program, and 
to be given the resources to effectively implement it.
    Again, from my perspective with 4,300 coalition members 
that are very diverse, we need to give resources in a flexible 
manner that gives them the power to design their programs.
    Mr. Francis. Let me reinforce that a little bit. Because we 
have one of these phasing out CSAP grants from the Center for 
Substance Abuse Prevention. One of the things we did with that 
is we are trying to demonstrate a new concept that reinforces 
exactly what Jim is talking about.
    That the prescription formula of doing for people and doing 
what you think is best for them is gone. Where we are right now 
is that people really need to come up with their own solutions, 
and they are fully capable of doing that.
    What we did with this grant is that we started taking a 
look neighborhood by neighborhood, going to neighborhood action 
councils in Bridgeport, and mapping their assets, not their 
deficits. Not how desperate and destitute these communities 
were, but the kind of positive resources they had in that 
community.
    Once we identified those through a geo-mapping process, we 
then organized them to come up with OK, how do you want to 
organize your block and your community to do something about 
the drug dealing and the drug use you have here. Where they did 
not have block clubs, they formed block clubs and they formed 
neighborhood watch programs.
    They started working with each other. This mentoring 
program that I talked about earlier they had mentors on the 
street that started intervening with the young people who were 
there and dealing with them. They did it themselves.
    The beauty of the coalition piece working with this is that 
we were able to facilitate that process. We taught them how to 
conduct meetings, and to put together plans to figure out where 
the money was, either in enterprise community money, or 
community develop block grant money or whatever, and taught 
them how to go after those resources to do something on their 
blocks.
    But they did it themselves. We were just there as a guide 
for them, as a helper in that process. We had some skills that 
they did not have. But we are in the process of transferring 
our skills to them.
    I think that is the beauty of what we are talking about 
here and what I said earlier, that there is no one prescription 
or no one formula.
    In Bridgeport right now, we are working with 16 
neighborhood groups. There are at least 16 different solutions. 
Those neighborhood groups have formed block groups and we even 
have more than that. It keeps multiplying.
    Mr. Barr. Thank you, Mr. Barrett.
    I would like to thank the witnesses for being here, for 
providing their materials both in writing and orally, as well 
as answering questions. I look forward to continuing to work 
with you and I appreciate your support of this important 
legislation.
    Thank you, gentlemen.
    Mr. Francis. Thank you.
    Mr. Copple. Thank you.
    Mr. Barr. At this point, the subcommittee will stand in 
recess until 3:30 or 5 minutes after the last vote on Mexico, 
whichever occurs the latest, for the markup.
    [Whereupon, at 2:35 p.m., the hearing adjourned, with the 
subcommittee to reconvene at 3:30 p.m., Thursday, March 13, 
1997, for markup.]

                                   - 

</pre></body></html>
